Audit of USAID/South Africa’s Global Development
Alliance Program
Audit Report No. 4-674-05-004-P
April 21, 2005




            PRETORIA, SOUTH AFRICA
Office of Inspector General



April 21, 2005


MEMORANDUM
FOR:             USAID/South Africa Acting Mission Director, Denise Rollins

FROM:            Acting Regional Inspector General/Pretoria, James Gaughran /s/

SUBJECT:         Audit of USAID/South Africa’s Global Development Alliance Program
                 (Report No. 4-674-05-004-P)

This memorandum transmits our report on the subject audit. In finalizing this report, we
considered management comments on the draft report and have included those
comments, in their entirety, as Appendix II in this report.

This report has four recommendations. In response to the draft report, USAID/South
Africa concurred with the recommendations and took corrective actions on all the
recommendations. Therefore, we consider that final action has been reached for all the
recommendations upon final report issuance, and no further action is required by the
Mission.

I appreciate the cooperation and courtesy extended to my staff during the audit.




                                                                                           1
[This page intentionally left blank.]




                                        2
           Summary of Results .............................................................................................5
Table of
Contents   Background ..........................................................................................................5

           Audit Objectives...................................................................................................6

           Audit Findings......................................................................................................6

                      Did USAID/South Africa consider utilizing Global Development
                      Alliances in planning its activities? ........................................................6

                       Did USAID/South Africa report its Global Development Alliances
                       accurately and completely?.....................................................................8

                                GDA Information in the Mission's
                                2004 Annual Report Was Not Always
                                Correct or Adequtely
                                Supported…………………………………………………………8

                                Errors in Reporting to GDA Database Need to Be
                                Corrected………………………………………………………..10

                                Documentation to Support Partner Contributions Was Not
                                Readily Available……………...…………………………...…...12

                       Did USAID/South Africa Global Development Alliances achieve their
                       intended results?.....................................................................................13

                                Intended Results Need to be Developed
                                and Monitored……………………...…......……………………13


           Evaluation of Management Comments ..............................................................16

           Appendix I-Scope and Methodology .................................................................17

           Appendix II-Management Comments ................................................................19




                                                                                                                                    3
[This page intentionally left blank.]




                                        4
Summary of   The Regional Inspector General/Pretoria conducted this audit as part of a
Results      worldwide effort to review USAID’s management of Global Development
             Alliances (GDA). The objectives of the audit were to determine whether 1)
             USAID/South Africa considered using GDAs in planning its activities; 2)
             USAID/South Africa reported its GDAs accurately and completely; and 3)
             USAID/South Africa’s GDAs achieved their intended results. (See page 6.)

             USAID/South Africa did consider utilizing GDAs in planning its activities. Five
             of its eight strategic objective (SO) teams had either utilized, were planning to
             utilize, or had actively considered utilizing GDAs, while the remaining SO teams
             provided a rationale for not doing so. USAID/South Africa reported its GDA
             information completely, but not always accurately. Also, the Mission did not
             maintain documentation to support that its GDAs met the elements to qualify as
             GDAs or to support partner contributions reported to USAID/Washington.
             Finally, because USAID/South Africa did not always document intended results
             for its GDAs, it was not possible to determine if the GDAs had met their intended
             results. (See pages 6-15.)

             This report includes four recommendations to assist USAID/South Africa to
             improve the accuracy of reported GDA information, improve documentary
             support for GDAs, including partner contributions, and develop more complete
             indicators or intended results for GDAs. (See pages 10, 11, 13, and 15.)

             In response to the draft report, USAID/South Africa concurred with the
             recommendations and took corrective actions on all the recommendations.
             Therefore, we consider that final action has been reached for all recommendations
             upon final report issuance. (See page 19.)

Background   The Audit of USAID/Zambia’s Global Development Alliances (Report No. 9-
             611-05-002-P) stated, “Over the last 30 years, financial resources dedicated to
             assisting the developing world have undergone a major transition. In 1970, 70
             percent of the money that went to the developing world from the United States
             came from the Federal Government, and only 30 percent came from other
             sources. By 2000, when total U.S. resource flows to the developing world
             surpassed $70.5 billion, only 20 percent of such resources came from the Federal
             Government, with 80 percent furnished by other sources. As a result, sources such
             as non-governmental organizations, universities, foundations, and corporations
             now play a significant role in financing development activities.

             In recognition of this major shift, USAID established the Global Development
             Alliance (GDA) business model in 2001. GDAs are understandings between
             USAID and other parties in the development community to jointly define a
             development problem and jointly contribute to its solution. According to
             USAID’s guidelines, GDAs require a minimum one-to-one matching of partner
             contributions to USAID resources. In addition, the partners’ contributions must


                                                                                            5
                 include non-public resources equal to at least 25 percent of the USAID
                 contribution. GDAs are sometimes referred to as ‘public-private alliances.’

                 While working closely with development partners is certainly not new to USAID,
                 since 2001 public-private alliances have been emphasized as a business model to
                 increase USAID’s effectiveness in delivering foreign assistance. To this end,
                 USAID established the GDA Secretariat in 2001. The Secretariat is a small
                 temporary staff office that reports directly to the Administrator. It is tasked with
                 providing training to USAID staff, performing outreach to prospective and current
                 alliance partners, and facilitating the effective use of alliances in USAID
                 programs. In fiscal year 2003, USAID reported that it had initiated or
                 substantially expanded an estimated 140 alliances with USAID funding of
                 approximately $273 million—leveraging an estimated $1.2 billion in partner
                 contributions. These alliances covered a variety of USAID initiatives ranging
                 from economic growth to humanitarian assistance.” During this same period,
                 USAID/South Africa reported six GDAs with USAID funding in its 2004 Annual
                 Report. However, two of those GDAs were not reviewed during this audit
                 because they were outside the scope of the audit.



Audit            This audit was conducted at USAID/South Africa as part of a worldwide effort to
Objectives       review USAID’s management of Global Development Alliances. The audit was
                 conducted to answer the following objectives:

                 •      Did USAID/South Africa consider utilizing Global Development
                        Alliances in planning its activities?

                 •      Did USAID/South Africa report its Global Development Alliances
                        accurately and completely?

                 •      Did USAID/South Africa Global Development Alliances achieve their
                        intended results?

                 Appendix I contains a discussion of the audit's scope and methodology.



Audit Findings   Did USAID/South Africa consider utilizing Global Development Alliances in
                 planning its activities?

                 USAID/South Africa considered utilizing Global Development Alliances (GDA)
                 in planning its activities.

                 Various forms of USAID guidance encourage the use of GDAs in planning
                 activities. Both USAID’s Automated Directive System (ADS) Chapter 201



                                                                                                   6
(Planning) and Tools for Alliance Builders1 state that operating units should
actively consider building public-private alliances directly into strategic plans,
selected SOs, or intermediate results. Additional GDA Secretariat guidance states
that if alliance building is not incorporated into a particular sector, the mission
should be able to provide a rationale for not doing so.




Photo shows 4 of 20 computers upgraded by the Telkom Foundation and Microsoft Ltd.
under an alliance with USAID/South Africa. These computers with internet connectivity
were provided to Letsibogo Girls High School in Soweto, Gauteng Province, South Africa.
Picture taken by RIG/Pretoria auditor in January 2005. four computers are neatly lined on
worktops with red chairs in front and posters on the wall promoting girls’ education.
USAID/South Africa had eight SO teams, and five of them had either utilized,
were planning to utilize, or had actively considered utilizing GDAs. The other
teams provided a rationale for not doing so in conformance with USAID
guidance. For example:

1. The education SO team developed an alliance with three major South African
   private firms and the South African Department of Education in fiscal year
   2003.

2. The democracy SO team initiated an alliance in fiscal year 2002 for reducing
   crime with a private group of South African businesses and the South African
   Department of Justice called Business Against Crime.

3. One of the two economic SO teams implemented one alliance in fiscal year
   2003 and another in fiscal year 2004. The other economic SO team was
   considering utilizing a GDA.


1
  The GDA Secretariat issued Tools for Alliance Builders, version four, on September 9, 2003. It
is cross-referenced in ADS chapters 200-202.


                                                                                              7
4. The three health SO teams were not considering GDAs in their planning
   activities since they were focused on HIV/AIDS and were primarily funded by
   The President’s Emergency Plan for AIDS Relief. However, the Mission was
   open to utilizing GDAs for future health programs.

5. The housing SO team had two GDAs—one associated with the Development
   Credit Authority and another which was regional in nature. However, both
   these alliances were excluded from the scope of the audit.

USAID/South Africa had last developed a five-year strategic plan in 2000 and
that plan was extended in 2003 for another two years. As such, it did not address
GDAs because the original plan was developed before USAID’s GDA model was
established in 2001.

Did USAID/South Africa report its Global Development Alliances accurately
and completely?

USAID/South Africa’s reporting of GDA activities was complete, but not always
accurate. For example, the Mission did report required GDA information in its
fiscal year 2004 Annual Report. However, the information included several
reporting errors and was not adequately supported. Also, some GDA data
reported by the Mission to the GDA Secretariat’s database was substantially
inaccurate. These issues are discussed in more detail below.

GDA Information in the Mission’s
2004 Annual Report Was Not Always
Correct or Adequately Supported

Summary: USAID/South Africa did not always accurately report or support
GDA-related data in its Annual Report for fiscal year 2004 as required by Federal
guidance. This occurred because the Mission did not fully understand how GDA
information was to be reported in or developed for the Annual Report. Because
the Annual Report contained incorrect or unsupported data, it limited USAID’s
ability to use the Mission’s Annual Report to evaluate the successes and
challenges of the Mission’s GDAs.

The Annual Report is one of USAID’s primary mechanisms for tracking the
results and impact of its GDAs. It is used to collect and analyze program and
resource information for a variety of purposes, including the Congressional
Budget Justification, the Performance and Accountability Report, and the Annual
Budget Submission.

USAID/South Africa did not accurately report or support the various elements
related to respective GDAs in its 2004 Annual Report. We found six reporting
errors for four GDAs described in the 2004 Annual Report. The results of our
audit of the Mission’s reporting of GDAs are summarized below.



                                                                               8
1. The Math, Science and Technology Alliance was mistakenly listed as a
   partnership agreement with Telkom Foundation, Microsoft Ltd. and
   Multichoice Africa Foundation. This was incorrect because there was no
   legally binding partnership agreement, but rather a Memorandum of
   Understanding (MOU) between the organizations.
2. The Business Against Crime (BAC) alliance planned partner contribution for
   fiscal years 2002 and 2003 was incorrectly reported as $4.1 million, based on
   an incorrect exchange rate calculation. The agreement with BAC required 25
   percent of the then-planned USAID contribution of $5.5 million, or $1.4
   million, which was the correct amount.
3. For the Development of Intellectual Property alliance and the HIV/AIDS
   consortium alliance, some studies were reported twice for the alliance
   indicators, resulting in an overstatement of progress under the economic SO.
   Also, the Annual Report identified quarterly reports as the medium to capture
   alliance data from the prime economics SO contractor; however no quarterly
   reports discussing partner contributions and progress were collected to support
   partner progress. These quarterly reports included only a brief write-up of
   progress, and no partner data was included. Since the Mission had no
   documentation for the non-public contributions, it did not have adequate
   support that this alliance met the GDA requirements. Additionally, the
   alliance was funded in fiscal year 2004, not fiscal year 2003 as reported.
4. Although the Wellcome Foundation and Kellogg Trust were listed as partners
   for the HIV/AIDS consortium, there were no independent, verifiable
   documents to support them as non-public partners. Additionally, the Mission
   was not able to provide documentation to confirm that these private
   institutions were alliance members; the activity should exhibit joint planning,
   joint problem definition, and shared risks and responsibilities.
5. Partnership leverage computations were inconsistently reported in the Annual
   Report. GDA guidance presented USAID funding as the first figure (e.g., 1:2,
   meaning that for every dollar USAID is funding, the partners are funding two
   dollars). The leveraging as reported for the Development of Intellectual
   Property alliance was estimated at 2:1. However, in this case, the partners’
   contributions were presented first, which could lead to misinterpreting the
   ratio to indicate that USAID would contribute two dollars for every dollar
   contributed by the partners, rather than vice versa. The leveraging for the
   HIV/AIDS alliance was also presented incorrectly at 4:1, instead 1:4. The
   Annual Report should have consistently used the suggested format in the
   GDA Tools for Alliance Builders.
6. For the HIV/AIDS alliance, the reported data source was incorrect. The
   Annual Report stated, “The information on the IIPI/SARIMA…data on the
   HIV/AIDS consortium is contained in the FY 2003 quarterly report of the
   prime Economic SO contractor.” However, the quarterly reports contained no
   partner data.



                                                                                9
The Standards for Internal Control in the Federal Government issued by the
Government Accountability Office in 1999, states that all transactions need to be
completely and accurately recorded. However, the Mission was unsure of the
basis for reporting information related to GDAs reported by the SO teams before
issuing its 2004 Annual Report. Consequently, the SO teams did not have
procedures in place to ensure that documentation was retained to ensure that
alliance partners, their contributions, and their relationships were accurately
reported in the 2004 Annual Report.

Without accurate GDA information in USAID/South Africa’s 2004 Annual
Report, USAID did not have the information needed to fully evaluate the
successes and challenges of using USAID/South Africa-managed GDAs. Without
adequate supporting documentation, USAID/Washington did not have the
required reasonable assurance that the partner contributions reported to Congress
under its GDA business model were reliable and accurate.

To help ensure that GDA information reported by USAID/South Africa in its
Annual Reports is accurate and supported by required documentation, we are
making the following recommendation.


       Recommendation No. 1: We recommend that USAID/South
       Africa establish procedures requiring that Global Development
       Alliance information in its Annual Reports is correctly
       reported and in accordance with Global Development Alliance
       Secretariat guidelines.


Errors in Reporting to GDA
Database Need to Be Corrected

Summary: According to Federal guidance, agencies should provide reasonable
assurance of reliability in financial and other reports. However, USAID/South
Africa misstated USAID total funding on one alliance, which overstated partner
leveraging, and incorrectly reported partner contributions as cash, instead of
reporting them as in-kind. This occurred because the GDA model was new and
Mission staff was not yet familiar with the procedures. Without accurate amounts
reported, USAID/Washington did not have reasonable assurance that amounts of
USAID funds and partner leveraging reported to Congress under its GDA
business model were accurate and reliable.

According to Standards for Internal Control in the Federal Government, Internal
Control should provide reasonable assurance the financial reporting and other
report are reliable. To accomplish this, the GDA Secretariat maintains a database
as a source for USAID’s GDA reporting in its annual Performance and



                                                                              10
Accountability Report, which receives wide distribution outside of USAID.
Among other things, this database contains the amount of USAID funding, names
of implementing and alliance partners, alliance partner contributions, and the
implementation status of each alliance. USAID/South Africa’s Program Planning
and Development Office submitted this information using an Excel spreadsheet
template provided by the Secretariat.

We performed detailed testing to verify the accuracy of the alliance information for
four alliances reported as GDAs for fiscal year 2003. Our tests indicated two
instances in which the USAID/South Africa information on the GDA Reporting
Template for the database was incorrect.

1. USAID funding for the Business Against Crime (BAC) alliance was reported
   as the amount obligated at that time ($1,253,550) for the cooperative agreement,
   not the full amount of USAID planned funding of $5.5 million as required by
   USAID guidance. This caused the leveraging of USAID funds to be overstated.

2. The non-public partners’ contributions for the Math, Science and Technology
   alliance were reported as cash when they should have been reported as in-kind
   contributions, e.g. upgrades to computers, software and internet connection.

Since this was a new model for reporting, Mission staff was not yet familiar with
the full requirements for reporting GDAs to the database. For example, some
Mission staff members were originally confused as to what was to be reported for
USAID funding – obligation, expenditures, or total planned.

USAID’s total GDA results reported to USAID/Washington and Congress is
primarily generated at the mission level. Unreliable mission data could result in
unreliable reported results at the aggregate level. Inaccurate figures for the
amount of USAID funding and the amount of leveraging could significantly
overstate or understate partner leveraging.

To help ensure that GDA information reported by USAID/South Africa in the
Global Development Alliance database is accurate, we are making the following
recommendation.

       Recommendation No. 2: We recommend that USAID/South
       Africa correct the reported amounts in the Global
       Development Alliance database via the reporting template for
       total planned USAID funding for the Business Against Crime
       (BAC) alliance, and the classification of leveraged
       contributions for the Math, Science and Technology alliance.




                                                                                 11
Documentation to Support Partner
Contributions Was Not Readily Available

Summary: According to Federal guidance, Missions must maintain supporting
documentation for significant information. USAID/South Africa did not maintain
adequate supporting documentation for two GDAs reported to the Secretariat.
This occurred because Mission staff did not know what type of supporting
documentation was needed for GDAs.               Without adequate supporting
documentation, USAID/Washington did not have reasonable assurance that the
partner contributions reported to Congress and the public under its GDA business
model were reliable and accurate. Additionally, the lack of adequate supporting
documentation also increased the risk that the Mission could not support that the
reported GDAs possessed the required elements to be considered official GDAs.

The Government Accountability Office’s Standards for Internal Control in the
Federal Government states that all transactions and other significant events need
to be clearly documented and that the documentation needs to be readily available
for examination. To be reported as a GDA, an alliance must meet the following
requirements: 1) it must be a public-private alliance in which total USAID
resources committed over the life of the alliance is leveraged at least on a 1:1
basis; 2) beginning in fiscal year 2003, partner contributions must include private
sector funds equal to at least 25 percent of the value of the expected USAID
resources; and 3) the activity should exhibit joint planning, joint problem
definition, and shared risks and responsibilities.

Two of the four USAID/South Africa alliances had no planning documents, such
as MOUs or Letters of Intent, supporting the three required GDA elements. For
example, USAID/South Africa had not formed or maintained documentation to
support that the two alliances had met the 25 percent matching requirement from
private sources. Eventually, the Mission excluded one of the alliances from GDA
reporting in its 2005 Annual Report, indicating that the alliance did not fit the
GDA model. The second alliance was formed in the Africa Bureau and
transferred to the Mission for management, and the Mission continued to report it
as a GDA. However, this alliance had no signed document listing the partners’
definitive contributions (including the required 25 percent matching).

This lack of documentation occurred because Mission personnel did not know
what type of support was needed for reported GDAs. Since a substantial portion
of USAID’s total GDA results is generated at the mission level, unreliable
mission data resulting from a lack of supporting documentation could result in
unreliable results at the aggregate level being reported to USAID/Washington and
Congress. Inaccurate figures for the number of GDAs, leveraging, and type of
partner contributions could significantly overstate or understate what has actually
been accomplished.




                                                                                12
To help ensure that GDA information reported by USAID/South Africa is
supported by required documentation, we are making the following
recommendation.

       Recommendation No. 3: We recommend that USAID/South
       Africa establish procedures to require documentation—at the
       time of reporting to USAID/Washington—for each of its
       reported Global Development Alliances, supporting (a) the
       existence of all three required alliance elements, and (b) the
       accuracy of leveraged contributions from alliance partners.


Did selected USAID/South Africa Global Development Alliances achieve
their intended results?

We were not able to determine whether two of the three GDAs funded in fiscal
year 2003 had achieved their intended results because (a) one alliance had no
intended results designed for it and (b) the indicators in the cooperative agreement
of another alliance did not match the indicators used for reporting. These issues
are discussed in more detail in the following section.

Intended Results Need To Be
Developed and Monitored
Summary: USAID/South Africa did not develop defined objectives (intended
results) and how performance would be measured for all of its reported GDA
alliances as required by USAID guidance. This occurred because USAID/South
Africa staff was not fully aware of the formal documentation requirements
supporting the necessary elements (i.e. 1:1 matching, 25% private sector matching
of USAID funding; and shared risks and rewards) of a GDA alliance when
entering into alliances with partners. As a result, GDA progress toward goals and
objectives (intended results) could not be adequately measured or reported.

A Practical Framework: Ten Steps for Analyzing and Integrating Public-Private
Alliances into USAID Strategic Planning from the GDA Secretariat website states
that “monitoring and evaluation criteria should be established with alliance
partners at the appropriate time. Identifying this expectation up front is an
important part of the alliance building process.” The GDA Secretariat’s Tools for
Alliance Builders goes on to say that alliances are formalized through documents
such as a negotiated Memorandum of Understanding or a grant or a cooperative
agreement. Input-level monitoring has a particular importance because alliances
rely on resources leveraged from multiple partners, and in many cases, these
resources will not be documented in a legally binding obligating agreement, as
they are for USAID funding for traditional projects. It is important, therefore, to
build in a system to track the level of resources committed and disbursed by each
resource partner, whether these are dollars or in-kind support. This information is
needed to provide assurance that each individual partner is meeting its


                                                                                 13
commitment. Furthermore, ADS Chapter 203.3 states that operating units should
use performance information to assess progress in achieving results and in making
management decisions, while Chapter 200.2 states that SO teams are responsible
for managing the achievement of strategic and special objectives.

Based on a review of Mission and partner documents, we were unable to
determine whether two of three GDAs funded in 2003 had met their intended
results. One reported alliance had no documents stating what the measurable
intended results were or what procedures were planned for tracking actual results.
The second alliance had a cooperative agreement listing lower-level indicators,
but the results of those indicators were not reported because baselines to measure
against were never developed.




This photo shows a television set, tuned to an educational channel, furnished by
Multichoice Africa Foundation, at Letsibogo Girls’ High School in Soweto, Gauteng
Province, South Africa. Taken by RIG/Pretoria auditor in January 2005. The television is
attached high up on the wall encased in an iron bar cage.
Specifically, we determined the following.

1. The reported results of the Development of Intellectual Property alliance were
   included in the number of quality studies performed, which contributed to an
   Intermediate Result of one economics SO. However, this reported GDA
   alliance had not developed a target for intended results or a method of
   reporting those results. Therefore, we were unable to determine whether the
   alliance did, in fact, achieve its goals.

2. The trilateral alliance between USAID, Business Against Crime, and the
   Republic of South Africa Department of Justice was based on a co-operative
   agreement with Business Against Crime, which listed indicators of:




                                                                                           14
              improved management of justice sector institutions,
              improved case processing and court efficiency,
              prevention of crime and violence, and
              better prosecutor-led criminal investigations.

   However, none of those indicators had established baselines, nor was progress
   towards them reported in the Mission’s 2004 Annual Report. Instead, a
   different indicator—the number of cases unprocessed in the South African
   courts for the period—was used for reporting progress.

USAID/South Africa did not establish intended results or monitoring methods as
required because Mission staff was not fully aware of the documentation
requirements of establishing GDAs. Additionally, USAID guidance for GDA
alliances had not yet been fully developed; therefore, the Mission had not
received updated guidance at that time on how, and to what level, the alliances
needed to be documented and monitored. However, the Tools September 9, 2003,
stated “The goal and objectives for your alliances should be, by now, established
with alliance partners up front. Set realistic, time-certain and measurable criteria
by which to gauge and later evaluate the progress of your alliance, charting the
course of the alliance by visible results. Monitoring and evaluation criteria and
benchmarks should be established with the alliance partners..” Such guidance
was augmented in September 2004 with a new version of Tools for Alliance
Builders.

Without establishing and documenting intended results, as well as methods for
monitoring such results, progress toward their achievement cannot be adequately
measured or reported.         Accordingly, we are making the following
recommendation to help enable the Mission to establish and monitor intended
results of GDAs.

       Recommendation No. 4: We recommend that USAID/South Africa
       establish procedures requiring appropriate documents are completed
       with each alliance partner, such as memoranda of understanding,
       letters of intent, or cooperative agreements, that include performance
       indicators and intended results.




                                                                                 15
Evaluation of   In response to the draft report, USAID/South Africa concurred with all four
Management      recommendations and issued a Mission Order which provides mission-specific
                procedures to ensure that it meets all the requirements of Recommendation Nos.
Comments
                1, 3, and 4. Additionally, the Mission furnished supporting documentation for the
                corrective action taken on Recommendation No. 2. Therefore, we consider that
                final action has been reached for all the recommendations upon final report
                issuance, and no further action is required by the Mission.




                                                                                              16
                                                                                     Appendix I

Scope and     Scope
Methodology
              The Regional Inspector General Pretoria conducted this audit in accordance with
              generally accepted government auditing standards. Mission fieldwork was
              conducted at USAID/South Africa in Pretoria from November 30, 2004 through
              January 20, 2005 and at a Global Development Alliance (GDA) project in Soweto
              in South Africa’s Gauteng province on January 13, 2005.

              To answer audit objective one, the scope included GDAs initiated as well as
              GDAs in the planning stage in fiscal year 2003, and USAID/South Africa initiated
              funding in fiscal year 2003 for one alliance: Math, Science and Technology. To
              answer audit objective two, the audit universe included the four Mission-managed
              GDAs reported to USAID/Washington for fiscal year 2003 in the fiscal year 2004
              Annual Report and on the GDA Reporting Template. To answer audit objective
              three, the scope included GDAs which had both fiscal year 2003 funding and
              reported fiscal year 2003 results. USAID/South Africa reported results in its FY
              2004 Annual Report from four alliances, however only three GDA alliances had
              task orders or a cooperative agreement issued from fiscal year 2002 to 2003, and
              the fourth alliance reported by the Mission for that year did not actually have
              funding until fiscal year 2004.

              In planning and performing the audit, we identified and assessed the effectiveness
              of management controls related to GDAs. Those controls were (1) maintaining
              readily available documentation related to the required elements of a GDA, (2)
              maintaining documentation for GDA-related amounts reported to the GDA
              Secretariat, (3) maintaining documentation for GDA-related data reported through
              the annual reporting system, (4) GDA-related controls in the Mission’s fiscal year
              2003 Performance Monitoring Plan, and (5) the Mission’s annual self-assessment
              of internal controls through its annual Federal Managers Financial Integrity Act
              review. Relevant criteria included Automated Directives System Chapters 200
              through 203, the GDA Secretariat’s Tools for Alliance Builders, A Practical
              Framework: Ten Steps for Analyzing and Integrating Public-Private Alliances
              into USAID Strategic Planning, and the Government Accountability Office’s
              Standards for Internal Control in the Federal Government.

              In cases where Mission files did not include appropriate supporting
              documentation, we requested and relied on additional documentation provided by
              Mission personnel and GDA partners. We did not independently verify the
              accuracy of alliance partner-reported contributions due to the lack of a contractual
              relationship with those resource partners. There were no prior audit findings
              affecting the areas reviewed in this audit.

              In its fiscal year 2004 Annual Report, the Mission reported four GDAs
              representing USAID funding of approximately $3 million and reported leveraged


                                                                                               17
partner contributions of nearly $66 million. One Development Credit Authority
(DCA) alliance and a regional alliance were excluded from the audit because the
DCA would be covered under another upcoming audit and the regional was
managed by another mission, and so were outside the scope of this audit. Three
of the four audited GDA alliances were funded in fiscal years 2002-2003.
USAID/South Africa’s GDAs represented less then 5 percent of the total 140
alliances reported by USAID in fiscal year 2003, as well as less than 5 percent of
total USAID GDA funding.

Methodology

To gain an understanding of the GDA program, we held discussions with officials
from USAID/South Africa and reviewed relevant documents. We performed the
following tasks:

   •   To answer audit objective one, we reviewed the Mission’s fiscal year
       2000-2005 country strategic plan, USAID/South Africa funding
       documents, and the fiscal year 2004 Annual Report.
   •   To answer audit objective two, we reviewed the Mission’s 2003 GDA
       Secretariat Reporting Template and fiscal year 2004 Annual Report,
       interviewed prime contractor personnel, and reviewed supplementary
       documents from alliance partners.
   •   To answer audit objective three to determine if each activity was
       achieving its intended results, the auditors reviewed funding documents,
       partner’s semi-annual and annual reports, and prime contractor quarterly
       progress memos.
   •   We reviewed Mission-maintained program files and selected
       documentation to determine compliance with USAID guidelines.
   •   A site visit to an alliance beneficiary school in Soweto related to the
       education strategic objective alliance was conducted, and we observed the
       equipment donated by partners and discussed the training with recipient
       teachers.
   •   In addition, for the three GDA alliances reporting results in fiscal year
       2003, the auditors reviewed prime contractor memos, semi-annual reports
       and a recipient-contracted audit report, plus documentation obtained from
       partners supporting partner participation.

We did not determine materiality thresholds for any of the three audit objectives.




                                                                                 18
                                                                                           Appendix II


Management
Comments




                                                          UNITED STATES GOVERNMENT
                                                             ACTION M E M O R A N D U M
DATE                :            April 14, 2005

TO              :                Jay Rollins, Regional Inspector General/Pretoria

FROM                :            Denise Rollins, Acting Mission Director /s/

                                 Management comments – Audit of USAID/South Africa’s Global
SUBJECT             :
                                 Development Alliance Program (Report No. 4-674-05-004-P)


The mission has reviewed the subject draft audit report and agrees with all four audit recommendations.

The following is our response to each of the four recommendations and the actions taken to resolve
them.

Recommendation #1: We recommend that USAID/South Africa establish procedures to ensure
that required Global Development Alliance information in its Annual Reports is correctly
reported and in accordance with Global Development Alliance Secretariat guidelines.

The mission has adopted Mission Order # 200.1 (attached), which provides mission-specific procedures
to ensure that required Global Development Alliance (GDA) information in its Annual Reports is
correctly reported in accordance with GDA Secretariat guidelines. The mission’s action addresses the
recommendation, and requests the finding be considered closed upon issuance of the final report.

 Recommendation #2 : We recommend that USAID/South Africa correct the reported amounts in
the Global Development Alliance database via the reporting template for total planned USAID
funding for the Business Against Crime (BAC) alliance and the classification of leveraged
contributions for the Math, Science and Technology alliance.

The mission has taken steps to correct the reported amounts in the GDA database via the reporting
template for the total planned USAID funding for the Business Against Crime (BAC) alliance, and the
classification of leveraged contributions for the Math, Science and Technology alliance. Attached is a
copy of the updated GDA database, along with an email from the contractor who maintains the data base


                                                                                                     19
for the GDA Secretariat verifying the corrections are completed. Since the reported amounts for
BAC and the classification for the Math, Science and Technology alliance are corrected, please
consider this as the required final action. We request the recommendation be closed upon
issuance of the final report.

Recommendation #3: We recommend that USAID/South Africa establish procedures to
require documentation – at the time of reporting to USAID/Washington – for each of its
reported Global Development Alliances, supporting (a) the existence of all three required
alliance elements, and (b) the accuracy of leveraged contributions from alliance partners.

The mission has adopted Mission Order # 200.1 (attached), which provides mission-specific
procedures to ensure that there be required documentation – at the time of reporting to
USAID/Washington – for each of its reported GDAs supporting (a) the existence of all three
required alliance elements, and (b) the accuracy of leveraged contributions for alliance partners.
The mission’s action addresses the recommendation, and the mission requests the finding be
considered closed upon issuance of the final report.

Recommendation #4: We recommend that USAID/South Africa establish
procedures requiring appropriate documents are completed with each alliance partner,
such as memoranda of understanding, letters of intent, or cooperative agreements, that
include performance indicators and intended results.

The mission agrees that each alliance will have appropriate documentation such as a letter of
intent, MOU, or cooperative agreement and the agreements will include performance indicators
and intended results. As such, we have included these requirements in our Mission Order No.
200.1 (attached). This will ensure that all future GDAs meet the necessary requirements for
GDA documentation. The mission has taken final action to address the recommendation and
requests the finding be considered closed upon issuance of the final report.




Drafted: Brian Conklin 4/14/05
Cleared:

/s/ Melissa Williams, PDO

/s/ Beverly Hadley, RLA




                                                                                                 20
